Memorandum No. D2010-RAM-010      June 11, 2010





        American Recovery and Reinvestment Act 

         Project—Repair and Modernization of 

         Administration Building 1500 at Naval 

              Air Station Pensacola, Florida

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
NAS                           Naval Air Station
NAVFAC                        Naval Facilities Engineering Command
OMB                           Office of Management and Budget
PWD                           Public Works Department
QMAD                          Quantitative Methods and Analysis Division
                                  INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON, VIRGINIA 22202-4704 





                                                                                 JUN 11 2010


MEMORANDUM FOR NAVAL INSPECTOR GENERAL
              COMMANDING OFFICER, NAVAL FACILITIES
                 ENGINEERING COMMAND SOUTHEAST
              COMMANDING OFFICER, NAVAL AIR STATION
                 PENSACOLA PUBLIC WORKS DEPARTMENT


SUBJECT: 	 American Recovery and Reinvestment Act Project- Repair and
           Modernization of Administrative Building 1500 at Naval Air Station
           Pensacola, Florida (Memorandum No. D2010-RAM-OIO)

We are providing this report for your information and use. We performed this audit in
response to the requirements of Public Law 111 -5, "American Recovery and
Reinvestment Act of2009," February 17,2009. We considered management comments
on a discussion draft of the report when preparing the final report. No additional
comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Timothy Wirnette at (703) 604-8876 (DSN 664-8876).


                                           (h~~-
                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
 Memorandum No. D2010-RAM-010 (Project No. D2009-D000LH-0313.000)                  June 11, 2010


              Results in Brief: American Recovery and
              Reinvestment Act Project—Repair and
              Modernization of Administrative Building 1500
              at Naval Air Station Pensacola, Florida
What We Did
Our overall objective was to evaluate DOD’s
implementation of Public Law 111-5, “American
Recovery and Reinvestment Act of 2009,”
February 17, 2009. Specifically, we determined
whether Navy personnel adequately planned,
funded, executed, tracked, and reported
Project RM55-01, to repair and modernize
Administrative Building 1500 at Naval Air
Station Pensacola, Florida, to ensure the
appropriate use of Recovery Act funds.

What We Found
We determined that Project RM55-01 was                  Administrative Building 1500 at Naval Air 

justified and met the Recovery Act goals                       Station Pensacola, Florida

regarding accountability and transparency.
Personnel at the Naval Facilities Engineering
Command Southeast Public Works Department at
Naval Air Station Pensacola, Florida, planned,
funded, executed, and had procedures in place to
track and report the project as required by the
Recovery Act and implementation guidance.

Although the contract initially omitted four
required Federal Acquisition Regulation clauses,
contracting personnel subsequently issued
contract modifications to include the clauses.

What We Recommend
This report contains no recommendations.

Management Comments                                    Basement of Administrative Building 1500 at 

                                                          Naval Air Station Pensacola, Florida 

The Commander, Naval Facilities Engineering
Command Southeast Public Works Department at
Naval Air Station Pensacola, Florida, had no
comments on the discussion draft report and
agreed with our results and conclusions. We do
not require any formal comments.



                                                   i
Introduction
Objective
Our overall objective was to evaluate DOD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009,” February 17, 2009 (Recovery Act).
We reviewed the implementation of the DOD Recovery Act plans at the Service and
installation levels to determine whether individual projects were managed to achieve the
accountability and transparency goals of the Recovery Act. Specifically, we determined
whether personnel at Naval Air Station (NAS) Pensacola, Florida adequately planned,
funded, executed, tracked, and reported to ensure the appropriate use of Recovery Act
funds for Project RM55-01 for the design, repair, and modernization of Administrative
Building 1500 at NAS Pensacola. See the appendix for a discussion of the audit scope
and methodology related to the audit objective.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DOD received approximately $6.8 billion1 in Recovery Act funds to be used for projects
that support the Act’s purpose. In March 2009, DOD released expenditure plans for the
Recovery Act, which list DOD projects that will receive Recovery Act funds. The
Department of the Navy received $1.928 billion in Recovery Act funds for Operations
and Maintenance; Military Construction; and Research, Development, Test and
Evaluation. Table 1 provides specific funds allocated to each appropriation.

    Table 1. Department of the Navy Program-Specific Recovery Act Appropriations
                     Appropriations                      Amount (millions)
    Operations and Maintenance                                 $916
    Military Construction                                        937
    Research, Development, Test and Evaluation                    75
     Total                                                    $1,928



1
  The $6.8 billion does not include $4.6 billion for the U.S. Army Corps of Engineers or $555 million for
the Homeowners Assistance Fund.
                                                     1
Of the $1.928 billion, the Department of Navy allocated approximately $10.6 million
(Operations and Maintenance) to support the repair and modernization of Administrative
Building 1500 at NAS Pensacola. This project consists of repairs and modernization of
fire safety systems; interior electrical distribution; heating, ventilation, and air
conditioning; interior plumbing; exterior and interior finishes; windows;
telecommunications system; electrical supply; and physical security. This project also
includes asbestos and lead paint removal and installation of an elevator and handicap
ramp to comply with the Americans with Disabilities Act.

NAS Pensacola’s mission is to enhance readiness of the U.S. Navy and the other Services
by fully supporting the operational and training missions of tenant commands assigned.
NAS Pensacola provides support to 89 DOD and 30 non-DOD tenant commands, the
majority of which are dedicated to training Navy, Marine Corps, and Coast Guard
personnel in naval aviation.




                                           2

Audit Results
We determined that Project RM55-01 met the goals regarding accountability and
transparency as provided in the Recovery Act. This project was justified, and the Naval
Facilities Engineering Command (NAVFAC) Southeast Public Works Department at
NAS Pensacola (the PWD) personnel planned, funded, and executed the project in order
to achieve the goals of the Recovery Act. In addition, PWD personnel had procedures in
place to track and report the project as required by the Recovery Act. Although the
contract was initially missing four Federal Acquisition Regulation (FAR) clauses
required by Recovery Act implementation guidance, contracting personnel issued
contract modifications to include the clauses.

Planning
PWD personnel appropriately planned the project, which we determined to be justified.
According to planning documents, Hurricane Ivan struck NAS Pensacola in 2004 causing
severe damage to Building 1500, which is a unique, historically-registered building. As a
result of the hurricane damage, the building presents many health hazards. The planning
documents state that this project will bring the building up to a safe and usable condition
to house command and support staff and allow the command to be in closer proximity to
the Admiral’s building. The project will also make the building compliant with the
National Preservation Act. Upon project completion, the Command and staff will move
from Building 624 into Building 1500. NAS Pensacola will then convert Building 624
into barracks for military personnel attending classes on base.

PWD personnel appropriately planned the project by obtaining a detailed cost estimate
and economic analysis. The cost estimate was based on the number of square feet
requiring repair and modernization and upgrades needed to meet requirements of the
Americans with Disabilities Act and Anti-terrorism Force Protection policy. The
economic analysis considered possible alternatives to house command and support staff,
such as status quo, leasing, renovation, and new construction. PWD personnel
determined that renovation was the best option because it was less expensive than new
construction and because it:

      provided a Command building closer to the Admiral’s building and apart from the
       training campus at NAS Pensacola,
      permitted completion of renovations without having to temporarily relocate
       tenants,
      vacated Building 624 for renovation into barracks for training campus students,
       and
      preserved a historically-registered building.

Funding
Navy personnel distributed Recovery Act funds to the Building 1500 repair and
modernization project in a timely manner, and funding documents properly identified a
Recovery Act designation. Navy Region Southeast personnel distributed Recovery Act

                                             3

funds to NAVFAC on September 11, 2009, and NAVFAC Southeast personnel awarded
the contract subsequent to receiving the funds. Funding documents indicated that
$10,598,586 was distributed for the project and identified the correct Recovery Act
appropriation in the line of accounting.

Execution
PWD personnel adequately performed initial project execution of the Recovery Act
project. In our evaluation of initial project execution, we determined whether the
contracts were competitively solicited and awarded, with full transparency, and whether
they contained the clauses the FAR requires for Recovery Act contract actions.

PWD personnel awarded the contract competitively at a firm fixed price of approximately
$10.6 million on September 18, 2009, which was one month earlier than the milestone
from the DOD’s Recovery Act expenditure plan. PWD personnel issued the request for
proposal competitively and eight companies responded. The PWD’s source selection
board evaluated the proposals based on price and six technical factors. PWD personnel
determined that the proposal from Greenhut Construction Co. provided the best value to
the Government. Greenhut Construction Co. tied with two other companies for the
highest technical evaluation scores. However, Greenhut Construction Co. had a lower
price than the other two companies did. Greenhut Construction Co. registered on the
Central Contractor Registration web page, and the Excluded Parties List System did not
include them as a debarred contractor.

Contracting personnel properly recorded contract actions to facilitate full transparency.
Office of Management and Budget (OMB) Memorandum M-09-15, “Updated
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
April 3, 2009, describes requirements for reporting Recovery Act funded actions in the
Federal Procurement Data System and publicizing actions on Federal Business
Opportunities. Contracting personnel properly reported the contract award in the Federal
Procurement Data System and announced the solicitation and contract award on the
Federal Business Opportunities website.

The contract was originally missing four FAR clauses. However, PWD personnel
modified the contract to include these clauses. PWD contracting personnel included most
of the required Recovery Act FAR clauses, including those for whistleblower protection,
reporting, the Davis-Bacon Act, and the Buy American Act. However, we identified one
missing subcontracting clause 52.244-6, “Subcontracts for Commercial Items” and three
clauses required by FAR Part 23, “Environment, Energy, and Water Efficiency,
Renewable Energy Technologies, Occupational Safety, and Drug-free Workplace.” FAR
part 23 prescribes policies and procedures for protecting and improving the quality of the




                                            4

environment. According to OMB Memorandum M-09-15, agencies must comply with
the requirements of FAR part 23 when acquiring supplies and services2 using Recovery
Act funds. The contract was missing the following clauses required by FAR part 23:

          FAR 52.223-2, “Affirmative Procurement of Biobased Products Under Service
           and Construction Contracts,”
          FAR 52.223-14, “Toxic Chemical Release Reporting,” and
          FAR 52.223-17, “Affirmative Procurement of EPA-designated Items in Service
           and Construction Contracts.”

Without these clauses, Navy officials could not hold contractors accountable for all
Recovery Act requirements or ensure the protection and improvement of the
environment. Since we identified this issue, PWD contracting personnel modified the
contract to include the four missing clauses.

Tracking and Reporting
Although repair and modernization of Building 1500 had not commenced at the time of
our review, the PWD had adequate personnel and procedures in place to track project
schedules, address non-conformances, and ensure the contractor met contract
requirements. PWD personnel stated that the construction manager and engineering
technician will review daily quality control reports, attend weekly quality control
meetings, and perform inspections to ensure the contractor has an adequate quality
control program in place and is following all contract requirements.

PWD personnel also had procedures in place to ensure the contractor reported required
Recovery Act information. FAR clause 52.204-11, “American Recovery and
Reinvestment Act – Reporting Requirements,” requires contractors for Recovery Act
projects to report project information at http://www.FederalReporting.gov. The
contracting officer and public works officer for this project stated that they planned to
register on the website to ensure the contractor is reporting as required. For the first and
second quarters of FY10, Greenhut Construction Co. reported the number of jobs and
total dollar value for the project as required.

Conclusion
We concluded that need for the repair and modernization of Administrative
Building 1500 was justified. NAVFAC Southeast officials adequately planned, funded,
and executed, the project. NAVFAC Southeast personnel had procedures in place to
track and report Project RM55-01 in accordance with the accountability and transparency
goals of the Recovery Act. Although the contract was originally missing four FAR
clauses, PWD personnel modified the contract to include these clauses. Therefore, this
report contains no recommendations.


2
    According to the definition of an acquisition in FAR Subpart 2.101, construction is a service.



                                                        5

Appendix. Scope and Methodology
We conducted this performance audit from October 2009 through June 2010. We
interviewed key personnel from the NAVFAC Southeast Regional Engineer Office and
the NAVFAC PWD at NAS Pensacola. We reviewed documentation including the
official contract file, economic analysis, cost estimate, DD Form 1391, Military
Construction Project Data, and associated support, and process for tracking and reporting
Recovery Act projects. We also conducted a site visit to tour Building 1500. We
reviewed Federal, DOD, Navy, and NAS Pensacola guidance, and compared this
guidance to our audit results.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System, Central
Contractor Registration, Excluded Parties List System, Federal Business Opportunities,
www.federalreporting.gov, and other systems. However, our use of computer-processed
data did not materially affect our audit results, findings, or conclusions, and the
information we used was obtained from sources generally recognized as appropriate.
Therefore, we did not evaluate the reliability of the computer-processed data we used.

Use of Technical Assistance
Before selecting DOD Recovery Act projects for audit, personnel in the Quantitative
Methods and Analysis Division (QMAD) of the DOD Office of Inspector General
analyzed all DOD agency-funded projects, locations, and contracting oversight
organizations to assess the risk of waste, fraud, and abuse associated with each. QMAD
personnel selected most audit projects and locations using a modified Delphi technique,
which allowed them to quantify the risk based on expert auditor judgment, and other
quantitatively developed risk indicators. Initially, QMAD personnel selected 83 projects
with the highest risk rankings. Auditors chose some additional projects at the selected
locations.

QMAD personnel did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, National Guard units, and public works projects
managed by the U.S. Army Corps of Engineers.




                                             6

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                         7

